@f Becker Gallagher
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for a Writ of Certiorari in ELLIOTT J.
SCHUCHARDT, INDIVIDUALLY AND DOING BUSINESS AS
THE SCHUCHARDT LAW FIRM V. PRESIDENT OF THE
UNITED States, ET AL., was sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 27th day of July, 2020:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents
Elliott J. Schuchardt
SCHUCHARDT LAW FIRM
6223 Highland Place Way
Suite 201
Knoxville, TN 37919
(865) 304-4374
elliott016@gmail.com
Appearing Pro Se

Becker Gallagher Legal Publishing Incorporated

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001
www.beckergallagher.com

Suite 102
Cincinnati, Ohio 45249

1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 27, 2020.

Donna J. Wolf (J
CP)
Becker Gallagher Legal Publishing, Inc.
8790 Governor’s Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

4 ^ dodo

Notary Public
[seal]

Mm

\ JOHN D. GALLAGHER
I Notary Public, State of Ohio
Commission Expires
FebruarvK 2023

